NEWS
                                                                                                          News Media Information 202 / 418-0500
                                                                                                                             TTY 202 / 418-2555
                                                                                                               Fax-On-Demand 202 / 418-2830
                                                                                                                   Internet: http://www.fcc.gov
                                                                                                                                     ftp.fcc.gov
Federal Communications Commission
445 12th Street, S.W.
Washington, D. C. 20554
This is an unofficial announcement of Commission action. Release of the full text of a Commission order
constitutes official action. See MCI v. FCC. 515 F 2d 385 (D.C. Circ 1974).




FOR IMMEDIATE RELEASE:                                                                News Media Contact:
June 3, 2003                                                                          David Fiske at (202) 418-0513



            SEMIANNUAL REPORT OF FCC INSPECTOR GENERAL RELEASED


    The Chairman of the FCC has transmitted to the appropriate Congressional Committees
the Inspector General's most recent Semiannual Report to Congress, covering the period October
1, 2002 – March 31, 2003.

   The report is available from the Commission's duplicating contractor: Qualex International,
445 12th Street, SW, Room CY-B402, Washington, DC 20554; telephone (202) 863-2893.

     The report is also available on the Internet. The Internet address is http://www.fcc.gov/oig/.


                                                            -FCC-



       Office of Inspector General contact: Thomas M. Holleran at (202) 418-1923.
